No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
JOYDETH ROBINSON,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
PETITION FOR A WRIT OF CERTIORARI
___________

Kevin Joel Page
Assistant Federal Public Defender
Federal Public Defender’s Office
Northern District of Texas
525 S. Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
Joel_page@fd.org

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
United States v. Joydeth Robinson, No. 20-10616
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas
United States v. Joydeth Robinson, 4:19-CR-00269-A

APPENDIX A

Case: 20-10616

Document: 00515786560

Page: 1

Date Filed: 03/18/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

___________

FILED
March 18, 2021

No. 20-10616
Summary Calendar
___________

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Joydeth Robinson,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-269-1
____________________________
Before Clement, Higginson, and Engelhardt, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

App. A 001

Case: 20-10616

Document: 00515786530

Page: 1

Date Filed: 03/18/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

March 18, 2021

No. 20-10616
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Joydeth Robinson,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-269-1
Before Clement, Higginson, and Engelhardt, Circuit Judges.
Per Curiam:*
Joydeth Robinson pleaded guilty, pursuant to a plea agreement, to one
count of sexual exploitation of children. Her offense of conviction involved
the production of an image of one of her minor daughters posed in a lewd and
lascivious manner. As part of the plea agreement, the Government dismissed

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

App. A 002

Case: 20-10616

Document: 00515786530

Page: 2

Date Filed: 03/18/2021

No. 20-10616

an additional count of sexual exploitation of children involving her other
minor daughter.
On appeal, Robinson challenges the portion of the presentence report
(PSR) that included a “pseudo count” and multiple count enhancement
under U.S.S.G. §§ 2G2.1(d)(1) and 3D1.4 for the conduct related to the
dismissed count. She did not object in the district court, so we review for
plain error. United States v. Randall, 924 F.3d 790, 795-96 (5th Cir. 2019).
We pretermit whether Robinson has shown an error that was clear or
obvious under Randall because she has failed to demonstrate that any error
affected her substantial rights. See United States v. King, 979 F.3d 1075, 108182 (5th Cir. 2020). With the multiple count enhancement and a three-level
reduction for acceptance of responsibility, the PSR calculated Robinson’s
total offense level as 44, which was reduced to 43 by U.S.S.G. Ch. 5, Pt. A,
cmt. n.2. Absent the multiple count enhancement, Robinson’s total offense
level is 42. But in both cases, the advisory guidelines sentence remains
unchanged at 360 months of imprisonment because the statutory maximum
term of imprisonment applies. See U.S.S.G. §5G1.1(a); King, 979 F.3d at
1081-82. Thus, the guidelines range is unaffected by the error, and Robinson
has otherwise failed to show any effect on her substantial rights or a
miscarriage of justice. See King, 979 F.3d at 1083.
The judgment is AFFIRMED.

2

App. A 003

APPENDIX B

Case 4:19-cr-00269-A Document 57 Filed 05/21/20

Page 1 of 6 PageID 138

mlntteb $tates :mtstrtct QCourt
Northern District of Texas
Fort Worth Division
UNITED STATES OF AMERICA

§

MAY 2 1 2020
CLERK. U.S. DJSTR!CT COURT
By
eputy

v.

§

JOYDETH ROBINSON

§

Case Number: 4: 19-CR-269-A(O 1)

JUDGMENT IN A CRIMINAL CASE

The government was represented by Assistant United States Attorney Aisha Saleem. The
defendant, JOYDETH ROBINSON, was represented by Federal Public Defender through
Assistant Federal Public Defender Michael A. Lehmann.
The defendant pleaded guilty on November I, 2019 to count two of the two count
Indictment filed on September 18,2019. Accordingly, the court ORDERS that the defendant be,
and is hereby, adjudged guilty of such count involving the following offense:
Title & Section/ Nature of Offense
18 U.S.C. §§ 2251(a) and (e) Sexual Exploitation of Children

Date Offense Concluded
June 22, 2019

Count
2

On motion of the United States, the court ORDERS as to this defendant that count one of
the indictment, be, and is hereby, dismissed.
As pronounced and imposed on May 21, 2020, the defendant is sentenced as provided in
this judgment.
The court ORDERS that the defendant immediately pay to the United States, through the
Clerk of this Court, a special assessment of$1 00.00.
The court further concluded that the defendant ts indigent and waived the $5,000
assessment required pursuant to 18 U.S.C. § 3014.
Having determined and found that defendant is a non-indigent person who has been
convicted of an offense listed in 18 U.S.C. § 2259A, the court further ORDERS that defendant
immediately pay as an added penalty $100 as contemplated by 18 U.S.C. § 2259A.
The court further ORDERS that the defendant shall notify the United States Attorney for
this district within 30 days of any change of name, residence address, or mailing address, as set
forth below, until all fines, restitution, costs, and special assessments imposed by this Judgment
are fully paid. If ordered to pay restitution, the defendant shall notify the court, through the clerk
of this court, and the Attorney General, through the United States Attorney for this district, of
any material change in the defendant's economic circumstances.

App. B 001

Case 4:19-cr-00269-A Document 57 Filed 05/21/20

Page 2 of 6 PageID 139

IMPRISONMENT
The court further ORDERS that the defendant be, and is hereby, committed to the
custody of the United States Bureau of Prisons to be imprisoned for a term of360 months.
The defendant is remanded to the custody of the United States Marshal.
SUPERVISED RELEASE
The coUI1 further ORDERS that, upon release from imprisonment, the defendant shall be
on supervised release for a term of Life. The court imposed a term of supervised release because
it will provide an added measure of deterrence and protection based on the facts and
circumstances of this case.
Pursuant to 18 U.S.C. §3583(d), as a condition of supervised release, upon the
completion of the sentence of imprisonment the defendant shall be surrendered by the Federal
Bureau of Prisons to a duly-authorized immigration official for deportation in accordance with
the established procedures provided by the Immigration and Nationality Act, 8 U.S.C. § 1101 et
seq. As a further condition of supervised release, if ordered deported the defendant shall remain
outside the United States.
In the event the defendant is not deported immediately upon release from imprisonment,
or should the defendant ever be within the United States during any portion of the term of
supervised release, the defendant shall comply with the following conditions of supervised
release:
I.

The defendant shall not unlawfully possess a controlled substance.

2.

The defendant shall not commit another federal, state, or local crime.

3.

The defendant shall cooperate in the collection of DNA as directed by the U.S. Probation
Officer, as authorized by the Justice for All Act of2004.

4.

The defendant shall refrain from any unlawful use of a controlled substance,
submitting to one drug test within 15 days of release from imprisonment and at least two
periodic drug tests thereafter, as directed by the probation officer pursuant to the
mandatory drug testing provision of the 1994 crime bill.

5.

upon commencement of supervised release, any part of the $100 assessment pursuant
to 18 U.S.C. § 2259A, ordered by this judgment remains unpaid, the defendant shall
make payments on such unpaid amount at the rate of at least $25 per month, the first such
payment to be made no later than 60 days after the defendant's release from confinement
and another payment to be made on the same day of each month thereafter until the
assessment is paid in full.

It:

2

App. B 002

Case 4:19-cr-00269-A Document 57 Filed 05/21/20

Page 3 of 6 PageID 140

6.

The defendant shall have no contact with the victim(s), including correspondence,
telephone contact, or communication through third parties except under circumstances
approved in advance by the probation ofticer and not enter onto the premises, travel past,
or loiter near the victims' residences, places of employment, or other places frequented by
the victims.

7.

The defendant shall have no contact with minors under the age of 18, including by
correspondence, telephone, internet, electronic communication, or communication
through third parties. The defendant shall not have access to or loiter near school
grounds, parks, arcades, playgrounds, amusement parks or other places where children
may frequently congregate, except as may be allowed upon advance approval by the
probation officer.

8.

The defendant shall not use any software program or device designed to hide, alter, or
delete records and logs of the defendant's computer use, Internet activities, or tiles stored
on the defendant's computer.

9.

The defendant shall submit to periodic, unannounced examinations of her
computer/computers, storage media, and/or other electronic or Internet-capable devices,
performed by the probation officer at reasonable times and in a reasonable manner based
on reasonable suspicion of contraband evidence of a violation of supervision. This may
include the retrieval and copying of any prohibited data and/or the removal of such
system for the purpose of conducting a more thorough inspection. The defendant shall
provide written authorization for release of information from the defendant's Internet
service provider.

I 0.

Without prior approval of the probation officer, the defendant shall not maintain or create
a user account on any social networking site (i.e., MySpace.com, Facebook.com,
Adultfriendfinder.com, etc.) that allows access to persons under the age of 18, or allows
for the exchange of sexually-explicit material, chat conversations, or instant messaging.
The defendant shall neither view nor access any web profile of users under the age of 18.

11.

The defendant shall not access any service or use any software that allows for direct peer
to peer contact, that may include chat rooms, file sharing or file transfer protocol activity,
or other similar activity, without permission from the probation officer.

12.

The defendant shall provide to the probation officer complete access to all business and
personal financial information.

13.

The defendant shall participate in mental health treatment services as directed by the
probation officer until successfully discharged, which services may include prescribed
medications by a licensed physician, with the defendant contributing to the costs of
services rendered at a rate of at least $25 per month.

14.

The defendant shall neither possess nor have under her control any pornographic matter
or any matter that sexually depicts minors under the age of 18 including, but not limited
to, matter obtained through access to any computer and any matter linked to computer
access or use.
3

App. B 003

Case 4:19-cr-00269-A Document 57 Filed 05/21/20

Page 4 of 6 PageID 141

15.

The defendant shall participate in sex-offender treatment services as directed by the
probation officer until successfully discharged, which services may include psychophysiological testing to monitor the defendant's compliance, treatment progress, and risk
to the community, contributing to the costs of services rendered at the rate of at least $25
per month.

16.

The defendant shall register as a sex offender with state and local law enforcement as
directed by the probation officer in each jurisdiction where the defendant resides, is
employed, and is a student, providing all information required in accordance with state
registration guidelines, with initial registration being completed within three business
days after release from confinement. The defendant shall provide written verification of
registration to the probation officer within three business days following registration and
renew registration as required by his probation officer. The defendant shall, no later than
three business days after each change of name, residence, employment, or student status,
appear in person in at least one jurisdiction and inform that jurisdiction of all changes in
the information required in the sex-offender registry.

17.

The defendant shall also comply with the Standard Conditions of Supervision as
hereinafter set forth.

Standard Conditions of Supervision
I.

The defendant shall repmi in person to the probation office in the district to which the
defendant is released within seventy-two (72) hours of release from the custody of the
Bureau of Prisons.

2.

The defendant shall not possess a firearm, destructive device, or other dangerous weapon.

3.

The defendant shall provide to the U.S. Probation Officer any requested financial
information.

4.

The defendant shall not leave the judicial district where the defendant is being supervised
without the permission of the Court or U.S. Probation Officer.

5.

The defendant shall report to the U.S. Probation Officer as directed by the court or U.S.
Probation Officer and shall submit a truthful and complete written report within the first
five (5) days of each month.

6.

The defendant shall answer truthfully all inquiries by the U.S. Probation Officer and
follow the instructions of the U.S. Probation Officer.

7.

The defendant shall support her dependents and meet other family responsibilities.

8.

The defendant shall work regularly at a lawful occupation unless excused by the U.S.
Probation Officer for schooling, training, or other acceptable reasons.

9.

The defendant shall notify the probation officer at least ten (10) days prior to any change
in residence or employment.
4

App. B 004

Case 4:19-cr-00269-A Document 57 Filed 05/21/20

Page 5 of 6 PageID 142

I 0.

The defendant shall refrain fl·om excessive use of alcohol and shall not purchase, possess,
use, distribute, or administer any narcotic or other controlled substance, or any
paraphernalia related to such substances, except as prescribed by a physician.

II.

The defendant shall not frequent places where controlled substances are illegally sold,
used, distributed, or administered.

12.

The defendant shall not associate with any persons engaged in criminal activity, and shall
not associate with any person convicted of a felony unless granted permission to do so by
the U.S. Probation Officer.

13.

The defendant shall permit a probation officer to visit her at any time at home or
elsewhere and shall permit confiscation of any contraband observed in plain view by the
U.S. Probation Officer.

14.

The defendant shall notify the probation oftlcer within seventy-two (72) hours of being
arrested or questioned by a law enforcement officer.

15.

The defendant shall not enter into any agreement to act as an informer or a special agent
of a law enforcement agency without the permission of the court.

16.

As directed by the probation officer, the defendant shall notify third parties of risks that
may be occasioned by the defendant's criminal record or personal history or
characteristics, and shall permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement.

The court hereby directs the probation officer to provide defendant with a written
statement that sets forth all the conditions to which the term of supervised release is subject, as
contemplated and required by 18 U.S.C. § 3583(f).

The court did not order a fine because the defendant does not have the financial resource
or future earning capacity to pay a fine.

STATEMENT OF REASONS
The "Statement of Reasons" and personal information about the defendant are set forth
on the attachment to this judgment.
Signed this the 21st day of May, 2020.

McBRYDE
ED STATES DISTRICT JU

5

App. B 005

Case 4:19-cr-00269-A Document 57 Filed 05/21/20

Page 6 of 6 PageID 143

RETURN
I have executed the imprisonment part of this Judgment as follows:

Defendant delivered on ~~~~~~-' 2020 to -~-;-c-~---c-:::---:--~~-:c-:-:--:---:-­
at ~~~~~~~~~~~~~~~~~~~-'with a certified copy of this Judgment.

United States Marshal for the
Northern District of Texas

By~-~~~--~~~------­
Deputy United States Marshal

6

App. B 006

